NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




          MATERIAL LOSS REVIEW
                    OF
      CERTIFIED FEDERAL CREDIT UNION


             Report #OIG-11-08
             September 1, 2011




             William A. DeSarno
             Inspector General


                 Released by:




              James W. Hagen
           Deputy Inspector General
Table of Contents


        Section                                                                                                Page


ACRONYMS AND ABBREVIATIONS ........................................................................ ii

EXECUTIVE SUMMARY............................................................................................ 1

INTRODUCTION AND BACKGROUND..................................................................... 3

OBJECTIVES, SCOPE, AND METHODOLOGY ........................................................ 5

RESULTS IN DETAIL................................................................................................. 8

    A. Why Certified Federal Credit Union Failed ...................................................... 8

    B. NCUA Supervision of Certified Federal Credit Union .................................... 15

APPENDIX

    A. Management Response ................................................................................ 22




                                                                                                                   i
Acronyms and Abbreviations

AIRES              Automated Integrated Regulatory Examination Software
AMAC               Asset Management & Assistance Center (Austin, TX)
Board              Board of Directors
Call Reports       NCUA 5300 Call Reports
CEO                Chief Executive Officer
DOR                Document of Resolution
FCU Act            Federal Credit Union Act
FPR                Financial Performance Reports
IT                 Information Technology
MBL                Member Business Loan
MLR                Material Loss Review
NCUA               National Credit Union Administration
NCUSIF             National Credit Union Share Insurance Fund
OIG                Office of Inspector General
PCA                Prompt Corrective Action
RFE                Risk-Focused Examination
SBA                Small Business Administration
SME                Subject Matter Expert




                                                                          ii
Material Loss Review – Certified Federal Credit Union
OIG-11-08



Executive Summary

We performed a Material Loss Review (MLR) on behalf of the National Credit Union
Administration (NCUA) Office of Inspector General (OIG) of Certified Federal Credit
Union (Certified or the Credit Union). We reviewed Certified to: (1) determine the
cause(s) of the Credit Union’s failure and the resulting estimated $9 million loss to
the National Credit Union Share Insurance Fund (NCUSIF); (2) assess NCUA’s
supervision of the Credit Union; and (3) make appropriate recommendations to
prevent future losses. To achieve these objectives, we analyzed NCUA examination
and supervision reports and related correspondence; interviewed NCUA officials and
regional staff; and reviewed NCUA guidance, including regional policies and
procedures, NCUA 5300 Call Reports (Call Report), and NCUA Financial
Performance Reports (FPR).

We determined Certified failed for the following reasons:

    •   Inaccurate Financial Reporting and Weak Accounting Practices and Internal
        Controls

        Certified management and Board allowed serious internal control
        weaknesses to exist including inadequate segregation of duties and untrained
        accounting staff. These weaknesses allowed the Chief Executive Officer
        (CEO) to override internal controls, prepare erroneous account reconciliations
        from the general ledger to the subsidiary ledgers and inaccurately report
        financial results to the Board of Directors (Board) and in quarterly Call
        Reports. The CEO knowingly prepared and directed the posting of monthly
        journal entries that had no support or rationale other than to inflate earnings
        and mask serious loan quality, liquidity, and profitability issues. Additionally,
        investigations of accounting irregularities at the Credit Union noted
        improprieties and potential fraudulent activities conducted by the CEO.

    •   Weak Board Oversight

        Certified’s Board was weak and unresponsive to financial risks and ethical
        issues and did not provide sufficient and responsive direction and follow-up to
        the repeated issues raised by auditors and examiners related to strategic
        direction, lending practices, delinquency monitoring, and inconsistent or
        nonexistent policies. Additionally, Certified’s Board took no action when
        examiners first brought unusual and suspicious accounting practices on the
        part of the CEO to their attention in 2005.




                                                                                       1
Material Loss Review – Certified Federal Credit Union
OIG-11-08



    •   Inadequate Risk Management Practices

        Certified management did not adequately identify, monitor, control, or report
        the risk created by its strategies and carried in its loan portfolio. Management
        maintained high real estate loan concentrations but had weak underwriting
        practices, deficient liquidity and delinquency tracking, and ineffective
        monitoring of Small Business Administration (SBA) loans.

In addition, we determined examiners and Region V management missed
opportunities to prevent or reduce the loss to the NCUSIF. Specifically, examiners
did not:

    •   Adequately assess the Management component of the CAMEL rating
        system.

    •   Adequately consider external audit findings and reviews when developing
        their examination procedures; or

    •   Apply appropriate administrative remedies when their own fraud investigation
        into the CEO’s fiduciary duties raised serious safety and soundness concerns
        due to the CEO’s business practices and ethical behavior.

Based on our review of the causes of Certified’s failure, we are making three
recommendations to NCUA management that we believe would correct identified
deficiencies. Management agrees with all three recommendations and has already
or is in the process of taking corrective action.

As major causes, trends, and common characteristics of credit union failures are
identified in OIG MLRs and recommendations are presented, the OIG will
communicate those to NCUA management for its consideration. As resources allow,
the OIG may also conduct more in-depth reviews of specific aspects of the NCUA’s
supervision program and also make recommendations, as warranted.

We appreciate the effort, assistance, and cooperation NCUA management and staff
provided to us during this review.




                                                                                       2
Material Loss Review – Certified Federal Credit Union
OIG-11-08



Introduction and Background

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
authorized Moss Adams LLP to conduct a Material Loss Review (MLR) for Certified
Federal Credit Union (Certified or the Credit Union), as required by Section 216 of
the Federal Credit Union Act (FCU Act), 12 U.S.C. §1790d(j). Certified was a
federally chartered credit union located in Commerce, California. NCUA’s Region V
provided primary supervision over the Credit Union.

History of Certified Federal Credit Union

Certified opened in 1949 and served members residing in and around Commerce,
California, with financial products that included insurance and real estate loans.
Certified also offered its members a full-service website that allowed for "Banking
from Home" functionality. Initially, Certified’s field of membership included the
employees of Certified Grocers and eventually grew to over 6,200 members with
assets of more than $50 million. Certified had 18 employees located in their single
main office.

In March 2008, NCUA Region V examiners imposed a moratorium on real estate
lending due to high real estate loan concentrations and poor loan quality. Region V
also issued a Letter of Understanding, which was accepted by Certified
management after the June 2009 examination. Region V supervised Certified until
NCUA management transferred the supervision of the credit union to Region IV. 1
Region IV immediately placed Certified in their Division of Special Actions.

During the first quarter of 2010, Region IV conducted an initial examination of
Certified and identified significant bank reconciliation issues, including unsupported
reconciling items and loan subsidiary ledgers that did not agree to the general ledger
or to Call Reports. As a result, Region IV officials required Certified’s Board to
engage an accounting firm to have a forensic review conducted as of April 30, 2010
to investigate potential fraud at Certified. The accounting firm issued their report to
the NCUA’s Asset Management and Assistance Center (AMAC) on August 2, 2010. 2

In May 2010, NCUA examiners determined the discrepancy between the subsidiary
loan ledgers and the general ledger would require an adjustment of approximately
$6 million to reduce total loans at the Credit Union. As a result of the adjustment,
Certified fell into a deficit capital position.


1
  In 2009, NCUA management transferred supervision responsibility of Certified to Region IV due to a regional
restructuring based on workload rebalancing among regional offices. Actual transition and responsibility for
supervising Certified did not occur until the first quarter of 2010.
2
  AMAC received the report because the NCUA had already liquidated Certified and AMAC retained the rights to
the bond claim at the time of issuance.
                                                                                                            3
Material Loss Review – Certified Federal Credit Union
OIG-11-08



On July 31, 2010, the NCUA Board involuntarily liquidated Certified Federal Credit
Union and appointed itself liquidating agent. Also on this date, the NCUA, as
liquidating agent, executed a purchase and assumption agreement and transferred
the assets, liabilities, and shares of Certified 3 to Vons Employees Federal Credit
Union of El Monte, California. The estimated loss to the National Credit Union Share
Insurance Fund (NCUSIF) was approximately $9 million; however, the NCUA will not
know the final cost until all assets are sold.

NCUA Examination Process

The NCUA uses a CAMEL 4 Rating System to provide an accurate and consistent
assessment of a credit union’s financial condition and operations. The CAMEL
rating includes consideration of key ratios, supporting ratios, and trends. Generally,
the examiner uses the key ratios to evaluate and appraise the credit union’s overall
financial condition. During an examination, examiners assign a CAMEL rating,
which completes the examination process.

Within the CAMEL Rating System, the NCUA examination process uses a total
analysis approach that includes: collecting, reviewing, and interpreting data;
reaching conclusions; making recommendations; and developing action plans. The
objectives of the total analysis process include evaluating CAMEL components and
reviewing qualitative and quantitative measures.

Examiner judgment affects the overall analytical process. An examiner’s review of
data includes structural analysis 5, trend analysis 6, reasonableness analysis 7,
variable data analysis 8, and qualitative data analysis 9. Numerous ratios measuring
a variety of credit union functions provide the basis for analysis. Examiners must
understand these ratios both individually and as a group because some individual
ratios may not provide an accurate picture without a review of the related trends.

Financial indicators such as adverse trends, unusual growth patterns, or
concentration activities can serve as triggers of changing risk and possible causes
3
  At the time of closure, Certified had approximately $38 million in assets and 8,500 members.
4
  The acronym CAMEL derives its name from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and [L]iquidity/Asset-Liability Management.
5
  Structural analysis includes the review of the component parts of a financial statement in relation to the
complete financial statement.
6
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
7
  As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance
ratios.
8
  Examiners can often analyze an examination area in many different ways. NCUA’s total analysis process
enables examiners to look beyond the “static” balance sheet figures to assess the financial condition, quality of
service, and risk potential.
9
  Qualitative data includes information and conditions that are not measurable in dollars and cents, percentages,
numbers, etc., which have an important bearing on the credit union’s current condition, and its future. Qualitative
data analysis may include assessing lending policies and practices, internal controls, attitude and ability of the
officials, risk measurement tools, risk management, and economic conditions.
                                                                                                                 4
Material Loss Review – Certified Federal Credit Union
OIG-11-08



for future problems. The NCUA also instructs examiners to look behind the numbers
to determine the significance of the supporting ratios and trends. Furthermore, the
NCUA requires examiners to: determine whether material negative trends exist;
ascertain the action needed to reverse unfavorable trends; and formulate, with credit
union management, recommendations and plans to ensure implementation of these
actions.

Risk-Focused Examination Program

In 2002, the NCUA adopted a Risk-Focused Examination (RFE) Program. Risk-
focused supervision procedures often include reviewing off-site monitoring tools and
risk evaluation reports as well as on-site work. The RFE process includes reviewing
seven categories of risk: Credit, Interest Rate, Liquidity, Transaction, Compliance,
Strategic, and Reputation. Examination planning tasks may include: (a) reviewing
the prior examination report to identify the credit union’s highest risk areas and areas
that require examiner follow-up, and (b) analyzing Call Reports and direction of the
risks detected in the credit union’s operation and on management’s demonstrated
ability to manage those risks. A credit union’s risk profile may change between
examinations. Therefore, the supervision process encourages the examiner to
identify those changes in profile through:

     •   Review of Call Reports;

     •   Communication with credit union staff; and

     •   Knowledge of current events affecting the credit union.

Objectives, Scope, and Methodology

Section 216(j) of the Federal Credit Union Act (FCU Act), 12 U.S.C. §1790d(j),
requires the Inspector General to conduct a material loss review when the NCUSIF
has incurred a material loss. 10 Moreover, the 2010 amendments to the FCU Act,
embodied in the “Dodd-Frank Wall Street Reform and Consumer Protection Act,” 11
further require the IG to conduct an in-depth review of a loss to the NCUSIF where
unusual circumstances might warrant the IG’s scrutiny, even where the loss did
meet the statute’s materiality threshold. In the case of Certified, the OIG determined
the circumstances surrounding the loss to the NCUSIF were unusual enough to
warrant our review, even though that loss did not exceed $25 million. Specifically,
we determined that the allegations of fraud and other suspicious business practices


10
   The FCU Act deems a loss “material” if the loss exceeds the sum of $25 million or an amount equal to 10
percent of the total assets of the credit union at the time in which the NCUA Board initiated assistance under
Section 208 or was appointed liquidating agent.
11
   Public Law No. 111-203, 124 Stat. 1376 (2010).
                                                                                                                 5
Material Loss Review – Certified Federal Credit Union
OIG-11-08



at Certified, as well as the ethical issues raised by examiners while supervising this
credit union, warranted the OIG performing a full-scope MLR.

The objectives of our MLR were to:

     •   Determine the causes of the Credit Union’s failure and any material loss to
         the NCUSIF;

     •   Assess NCUA supervision of the institution, including implementation of the
         Prompt Corrective Action (PCA) requirements of Section 208 of the FCU Act;
         and

     •   Make appropriate recommendations to prevent future losses.

To accomplish our review, we performed fieldwork at the NCUA’s Region IV office in
Austin, Texas 12 and Region V office in Tempe, Arizona, and conducted interviews of
NCUA officials and examiners. The scope of this review covered the period from
June 2004 through liquidation in July 2010.

To determine the cause(s) of Certified’s failure and assess the adequacy of NCUA’s
supervision, we:

     •   Prepared a chronology of examination scope and procedures, comments, and
         corrective actions;

     •   Reviewed examination files and Certified’s Board of Director’s (Board)
         minutes;

     •   Reviewed external audit findings and follow-up procedures;

     •   Reviewed the forensic review dated August 2, 2010, issued by an external
         accounting firm;

     •   Conducted interviews with NCUA officials and examiners involved at various
         levels in the examination process;

     •   Reviewed policies and procedures included in examination files related to
         loan quality, investment quality, liquidity management, and earnings;

     •   Reviewed NCUA and regional rules, regulations, and guidelines; and


12
  Region V supervised Certified until November 2009 when the NCUA transferred the credit union to Region IV
due to a workload rebalancing among regional offices after the 2009 regional restructuring.
                                                                                                              6
Material Loss Review – Certified Federal Credit Union
OIG-11-08



    •   Reviewed NCUA Call Reports, Financial Performance Reports, and other
        documentation related to the supervision of Certified.

We used computer-processed data from NCUA’s Automated Integrated Regulatory
Examination Software (AIRES) and NCUA online systems. We did not test controls
over these systems. However, we relied on our analysis of information from
management reports, correspondence files, and interviews to corroborate data
obtained from these systems to support our audit conclusions.

We conducted this audit from November 2010 through August 2011 in accordance
with Generally Accepted Government Auditing Standards, and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on
our audit objective. We believe the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




                                                                                    7
Material Loss Review – Certified Federal Credit Union
OIG-11-08



Results in Detail

We determined Certified’s Chief Executive Officer (CEO) and Board of Directors
(Board) contributed directly to the Credit Union’s failure. In addition, we determined
the loss to the NCUSIF could have been prevented or mitigated had examiners:
(1) adequately assessed and more aggressively pursued resolution to issues related
to external audits and reviews; (2) properly assessed the effectiveness of the credit
union’s Board; and (3) aggressively pursued administrative remedies in 2005 when
questionable practices committed by the CEO first surfaced.

A. Why Certified Federal Credit Union Failed

 Inaccurate Financial          We determined Certified’s accounting practices and
 Reporting and                 related internal controls were severely lacking.
 Inadequate Internal           Specifically, serious internal control weaknesses
 Controls                      including inadequate segregation of duties and
                               untrained accounting staff, allowed the CEO to override
                               internal controls, prepare erroneous account
reconciliations from the general ledger to the subsidiary ledgers, and inaccurately
report financial results. Examiners also noted accounting and reporting errors
related to the recording of loan sales, loan loss reserve calculations, and
unsupported journal entries made by the CEO. As a result, Certified’s financial
condition, as reported to its Board of Directors and the NCUA in its Call Reports,
was materially inaccurate.

Both examiners and external auditors consistently reported inaccurate accounting
records and weak internal controls. In June 2004, an external audit report noted
interest accruals did not agree to the general ledger and that reconciling items
related to the CEO’s real estate loans lacked support. The report noted improper
segregation of duties related to the CEO who independently prepared account
reconciliations, and two employees whom the CEO authorized to approve and
process loans in addition to their file maintenance activities. The June 2004 NCUA
examination also noted reconciliation issues with subsidiary ledgers, prepaid
expense, and equity accounts. We determined, however, that Certified’s
management and Board did not address these issues as they continued throughout
the scope of our review.

The November 2005 external audit found that third-party real estate loans did not
reconcile to the general ledger. The December 2006 full-scope NCUA examination
also found serious reconciliation issues that included suspense and clearing
accounts.

The December 2006 examination noted the need for staff training in basic
accounting. Specifically, Certified staff members made erroneous entries under the
                                                                                     8
Material Loss Review – Certified Federal Credit Union
OIG-11-08



direction of the CEO due to either a lack of knowledge or fear of losing their job. The
December 2009 contact concluded that neither the CEO nor the vice president of
accounting had sufficient knowledge to provide accurate accounting records and
financial statements.

Finally, a monthly accounting review conducted by an independent consultant in
early 2010 determined that SBA, Member Business Loan (MBL), and real estate
sub-ledgers did not tie to the general ledger. Certified management sold loans and
did not properly book the sale, erroneously recording the offsetting credit to income,
rather than reducing loans receivable. The erroneous entries resulted in an $8.8
million loss to Certified’s capital.

Improprieties and Allegations of Management Fraudulent Activity

We determined Certified’s CEO engaged in unethical behavior that breached his
fiduciary responsibilities. An important contributor to the demise of Certified was the
alleged fraud and improprieties committed on the part of the CEO. Allegations of
fraud and improprieties first surfaced through anonymous telephone calls to the
NCUA in April and May of 2005. In addition, in 2010, an independent consultant and
an outside forensic review uncovered several other questionable activities linked to
the CEO.

In 2005, after receiving the anonymous phone calls, NCUA’s Region V conducted its
own limited-scope fraud investigation that resulted in a finding of suspicious activity
related to potential money laundering by the CEO. The fraud investigation
concluded there was no evidence to substantiate the fraud allegations committed by
the CEO; however, in a memorandum report of their investigation, Region V officials
characterized the CEO’s activity as:

        “…inappropriate and abusive, and unusual and suspicious.”

The NCUA discussed the findings of the report with the credit union’s Supervisory
Committee Chair, including details regarding the inappropriate and suspicious
transactions involving the CEO. Certified’s Board and Supervisory Committee took
no action to remove the CEO from his position.

During the first quarter of 2010 after supervisory responsibility of the credit union had
transferred to Region IV and during Region IV’s initial examination, Certified
management hired an outside consultant to conduct an accounting review of
monthly accounting practices and reconciliations to assess financial reporting
accuracy and to determine if fraud indicators were present. The review determined
Certified’s accounting staff had made large unsupported adjusting journal entries to
the general ledger at the direction of the CEO for at least two years. In addition, the


                                                                                       9
Material Loss Review – Certified Federal Credit Union
OIG-11-08



review noted the CEO had insisted on “reconciling” certain balance sheet accounts
but was not able to provide support for his reconciling items.

Following the accounting review, Region IV officials required Certified management
to contract with an independent public accounting firm to conduct a forensic review
to investigate the possibility of fraud based on the results of the accounting review.
The results of the forensic review determined management had fabricated some of
the financial reports provided to examiners. Specifically, the review noted that
management input fictitious entries into an information technology (IT) test
environment, which ran a second general ledger accounting system for the Credit
Union. As a result, examiners relied on misleading financial statements and
information during examinations.

The 2010 forensic review also noted the CEO had unauthorized waivers of fees
related to nonsufficient funds and late payments on his accounts, modifications to
his and one of his family members’ loans, check kiting, and potential kick backs from
vendors and from loan origination fees and commissions paid to one of the Credit
Union’s loan officers.

In addition, the 2010 forensic review reported that both the CEO and a loan officer
maintained businesses outside the Credit Union. The CEO had a consulting
company, which contracted for a 20 percent share of commissions paid to the loan
officer’s mortgage servicing business. The loan officer generated low quality loans
with high origination fees, which were then approved by the CEO. The loan
origination fees were paid by Certified in the form of commissions to the loan
officer’s company, which then paid the CEO’s consulting business its 20 percent
share. 13 The forensic review further noted that Certified did not issue the
appropriate Internal Revenue Service tax forms for commissions paid to the loan
officer’s company for the 2007 through 2009 tax years until instructed by the NCUA
in 2010 to do so.

Finally, the 2010 forensic review identified three vendors as having received
significant payments beyond the expectations of a credit union of this size. Those
vendors included an IT consultant who was paid $850,000 for a computer
conversion, an advertising company that was paid nearly $20,000 per month in 2008
and 2009, and a contractor whose billings exceeded $400,000 for construction
projects that occurred in 2007, 2008, and 2009. The report noted the contractor’s
billings coincided with construction projects conducted at the CEO’s personal
residence. The report was silent as to whether the Credit Union paid for the work
conducted at the CEO’s residence.



13
     Commission payment activity occurred primarily in 2008 and 2009 when the economy was in rapid decline.
                                                                                                              10
Material Loss Review – Certified Federal Credit Union
OIG-11-08



Weak Board Oversight

We determined Certified’s Board did not provide sufficient and responsive direction
and follow-up to repeated issues raised by external auditors and examiners related
to strategic direction, lending practices, delinquency monitoring, and inconsistent or
nonexistent policies. Additionally, the Board took no action when unusual and
suspicious accounting practices on the part of the CEO were brought to their
attention. As a result, the lack of effective policies and Board inaction allowed for
inappropriate employee expense reimbursements, unauthorized loan modifications,
unrestricted vendor selection, and inadequate lending practices.

We also determined Certified’s Board placed too much faith in the CEO and did not
respond to character issues and accounting irregularities raised by anonymous
callers, auditors, and examiners beginning in 2004 and persisting until the Credit
Union’s demise. As previously mentioned, Region V’s June 2005 fraud investigation
into the CEO’s practices raised serious ethical and judgment issues, including a
statement that the CEO

        “…enriched himself personally at the credit union’s expense.”

Specifically, the June 2005 fraud investigation found instances of unauthorized
personal loan extensions, personal expenses charged to Certified of $1,085, and a
personal auto loan balance converted to a Credit Union expense for $5,577. The
Board took no action against the CEO; in fact, they retroactively approved the
personal expenses cited in the fraud investigation memorandum.

In addition, the Board did not require management to follow up on auditor
recommendations, as far back as 2005. Specifically, we determined management
did not address audit recommendations to reduce operating costs, acknowledge the
real estate slow down, set real estate concentration limits, develop a vendor
selection policy, or correct subsidiary ledger balancing and Call Report
discrepancies.

We determined a 2005 Supervisory Committee audit found unsupported reconciling
items related to the CEO’s real estate loans. We also learned that when the external
auditor informed the Committee and Board of the results of the audit, the Board’s
response was to instruct the auditor not to perform any follow-up procedures.
Supervisory Committee audits conducted in the following years continued to cite
reconciling issues. The Board remained supportive of the CEO until Region IV
informed the Board in March 2010 of the CEO’s suspicious activity, which created a
divide among Board members until his resignation in May 2010.




                                                                                    11
Material Loss Review – Certified Federal Credit Union
OIG-11-08



We also determined Certified’s Board did not control identified risks associated with
rapidly declining real estate values. For example, the 2005 Supervisory Committee
audit specifically noted

        “…the recent slowdown in the real estate market.”

However, rather than reduce their risk in real estate lending, Certified’s Board
approved the addition of a nontraditional mortgage program to its real estate
portfolio that allowed subprime elements such as stated income and interest-only
loans.

We determined Certified’s lack of formal and comprehensive policies was also a
recurring theme. Examiners issued a Document of Resolution (DOR) in both the
June 2004 and June 2005 examinations related to the credit union’s Asset/Liability
Management policy and Real Estate Loan Policy, respectively. Examiners also
identified a need for a policy on employee expense reimbursements related to
corporate credit cards in their December 2006 examination. The Board approved a
policy in 2007, stating that employees could only use corporate credit cards for
Credit Union business; however, the policy was not followed and examiners cited
credit card violations in the 2009 exam. External auditors also identified issues with
Certified’s lack of policies. For example, in the March 2005 Supervisory Committee
audit, auditors noted the need for a vendor selection policy, and in June 2009,
auditors recommended the development of a Loan Modification Policy.

Inadequate Risk Management Practices

We determined Certified management did not adequately identify, monitor, control,
or report the risk created by its business strategies and carried in its loan portfolio.

Certified maintained high real estate concentrations. As shown on Chart 1 (below),
real estate loans comprised a major part of the loan portfolio and did not start to
significantly decline until 2008, when the underlying property values were dropping
and material write-downs occurred.




                                                                                       12
Material Loss Review – Certified Federal Credit Union
OIG-11-08



Chart 1


                                     Loan Concentrations
                                  (Percentage of Total Loans)
     100%
      80%
      60%
      40%
      20%
       0%
               1/1/2004     1/1/2005      1/1/2006      1/1/2007      1/1/2008      1/1/2009

            New Vehicle                Used Vehicle                1st Mortgage
            Other RE                   Credit Card and Unsecured   Business and Other

      Source: NCUA Call Reports

In June 2005, examiners noted Certified had an inexperienced loan committee; no
tracking of performance by loan category; inadequate income verification processes;
allowed nontraditional interest-only loans; and needed to set portfolio limits.
Management did not adequately address these concerns and, as a result, examiners
repeated these same issues in the March 2008 examination’s DOR.

We also determined Certified management’s underwriting practices did not
sufficiently assess or track borrower credit worthiness and related collateral values.
Throughout the period of our review, we found examiners expressed underwriting
concerns related to income verification and policy compliance. Examiners also
noted management did not monitor delinquencies timely or reflect them accurately in
the financial statements. The DORs issued as a result of the 2005, 2008, and 2009
examinations included steps to improve the methodology and underlying data used
to calculate loan loss reserves, which significantly impacted the strength of
Certified’s financial position.

The December 2006 Supervisory Committee audit noted that lending policies did not
match current practice. For example, management made loans to nonmembers,
which was against Credit Union policy.

The December 2006 examination noted liquidity pressure from Certified’s large real
estate portfolio; lack of monitoring of the credit scoring process to loan performance;
and an allowed loan-to-value of up to 100 percent in the real estate lending policy.
The examination further noted that management’s strategy to rely on nonmember
deposits to fund loans was not working.
                                                                                               13
Material Loss Review – Certified Federal Credit Union
OIG-11-08



Failure to manage liquidity risk was also a recurring theme, particularly when real
estate concentration rose to nearly 70 percent of loans, with most of those at fixed
rates. The high cost of nonmember deposits, which rose to 18 percent of total
deposits, accelerated the increasing liquidity problem.

Certified management also did not properly monitor SBA lending, which resulted in
the nonguaranteed portion of loans being inadequately secured. Examiners noted
and warned management in their report(s) of examination that they [management]
did not have the necessary expertise or infrastructure to process SBA loans. SBA
loans were encouraged and generated by a loan officer who received large fees for
originating and selling these loans, many of which turned into write-offs. The June
2009 examination noted the non-guaranteed portion of the SBA portfolio was nearly
$1 million of the $40 million loan portfolio at June 30, 2009.




                                                                                       14
Material Loss Review – Certified Federal Credit Union
OIG-11-08



B. NCUA Supervision of Certified Federal Credit Union

                            We determined a contributing factor in the failure of
 Examiners Could
                            Certified was NCUA examiners and Region V
 Have Prevented or
                            management’s failure to take decisive action to address
 Mitigated the Loss
                            serious safety and soundness concerns surrounding the
 to the NCUSIF
                            CEO’s business practices and unethical behavior.
                            Specifically, examiners could have prevented or reduced
the loss to the NCUSIF had they adequately considered external audit findings and
reviews when developing their examination procedures; and applied swift and
appropriate administrative remedies to resolve the safety and soundness concerns
raised in the NCUA’s June 2005 Fraud Investigation memorandum. As a result of
the examiners and Region V management’s failure to take decisive action, it allowed
the CEO to breach his fiduciary duty and remain in his position until he resigned in
May 2010.

Supervisory Background

Certified consistently received Composite CAMEL 2 ratings from June 2004 through
June 2006, an indication of strong performance. However, Certified began to
deteriorate beginning with the December 2006 examination when examiners
downgraded Certified to a Composite CAMEL 3. At the conclusion of the June 2009
examination, examiners again downgraded Certified to a Composite CAMEL 4. In
November 2009, NCUA transferred Certified to Region IV and regional management
immediately placed Certified in the Division of Special Actions. By January 2010,
examiners lowered Certified’s Composite CAMEL rating to a 5. Table 1 (below)
provides specific CAMEL ratings during the scope period of our review.




                                                                                 15
Material Loss Review – Certified Federal Credit Union
OIG-11-08



Table 1 NCUA Examination Results

Credit Union
                               Exam       CAMEL         Cap/Net      Asset
Examination                    Type
                                    14
                                         Composite       Worth       Quality
                                                                                 Mgmt       Earnings    Liquidity
Effective Dates
June 2004                       10            2            1            2           2           3          2
March 2005                      22            2            1            2           2           3          2
June 2005                       10            2            1            2           2           4          2
May 2006                        22            2            1            2           2           4          2
June 2006                       22            2            1            2           2           4          2
December 2006                   10            3            1            1           4           3          4
May 2007                        22            3            1            1           4           3          4
March 2008                      10            3            2            3           3           4          4
December 2008                   22            3            2            3           3           4          4
June 2009                       10            4            4            4           4           4          4
September 2009                  22            4            4            4           4           4          4
December 2009                   22            4            4            4           5           4          4
January 2010                    22            5            5            4           5           5          4
March 2010                      22            5            5            5           5           5          5
April 2010                      22            5            5            5           5           5          5
June 2010                       22            5            5            5           5           5          5

We noted two supervisory actions taken against Certified. In March 2008, NCUA
Region V examiners imposed a moratorium on real estate lending due to high real
estate loan concentrations and poor loan quality, followed by a Letter of
Understanding, which examiners issued and management accepted after the June
2009 examination.

Based on our review of examination reports and supporting examination files and
workpapers, we determined that NCUA could strengthen examination processes to
limit NCUSIF exposure as follows:

Consideration of External Audit Findings

We determined examiners and Region V management did not adequately consider
external audit findings when conducting their examinations. We base our conclusion
on the following:

       •   External audit reports as far back as 2004 raised concerns about account
           reconciliations and segregation of duties in the Credit Union. In the 2004
           Supervisory Committee audit, auditors raised specific findings related to

14
     Exam Type 10 is a full scope, on-site examination and Type 22 is a more limited on-site contact.
                                                                                                               16
Material Loss Review – Certified Federal Credit Union
OIG-11-08



        inaccurate reconciliations and inappropriate CEO authority related to
        accounting practices.

    •   The 2005 Supervisory Committee audit repeated and expanded concerns to
        include subsidiary ledgers that did not agree with the general ledger,
        inadequate vendor selection policies, and Call Reports that did not agree with
        the general ledger.

    •   Examiners advised they believed external auditors tested the reconciliation of
        accounts in the course of performing their external audit and that performing a
        reconciliation of accounts was not a required procedure for NCUA
        examinations. We found no evidence in the examination workpapers of
        procedures to review the reconciliation of accounts to the general ledger.

    •   The DORs issued to management in 2004 and 2005 did not address
        accounting irregularities and concerns raised in the external audits such as
        reconciliation issues; lack of proper segregation of duties involving the CEO;
        Call Report errors; falling net worth; weakening real estate market; insufficient
        borrower income verification; and excessive operating costs.

We also found no evidence until 2010 in the examination workpapers indicating that
examiners adjusted the approach and procedures to follow up on the serious
accounting and strategy concerns noted in the external audits. We believe this
resulted in a missed opportunity to limit the loss to the NCUSIF.

Administrative Remedies Not Pursued

We determined examiners and Region V officials did not pursue administrative
remedies to resolve serious issues uncovered during Region V’s June 2005 fraud
investigation. As previously noted, NCUA Region V officials conducted a limited-
scope investigation to confirm or deny allegations of fraudulent activity conducted on
the part of the CEO and issued an investigation memorandum detailing the results.

Although Region V officials were unable to substantiate allegations of fraud, they did
determine the CEO had abused his position to enrich himself personally at the credit
union’s expense. Region V officials also determined the CEO used his family
members’ accounts at the credit union to accomplish a potential money-laundering
scheme. We believe both these actions by the CEO breached his fiduciary duty to
the Credit Union, which created a serious safety and soundness concern at
Certified. In addition, we determined both the Board and the Supervisory Committee
did not respond to the findings or recommendations detailed in the Region’s
investigation memorandum. As a result of examiners’ and Region V officials’ failure
to take decisive action to address serious safety and soundness concerns

                                                                                      17
Material Loss Review – Certified Federal Credit Union
OIG-11-08



surrounding the CEO’s business practices and unethical behavior, the CEO
remained in his position until May 2010.

The NCUA Examiner’s Guide (Guide) indicates that administrative actions represent
the strongest supervisory tool available to the agency to prevent, alter, or eliminate
serious operational or managerial problems in a credit union. The Guide also states
that NCUA can remove from office directors, officers, or committee members when
they have (directly or indirectly) engaged or participated in any unsafe or unsound
practice in connection with a credit union. 15 NCUA divides administrative remedies
between informal and formal actions. 16

During the June 2005 examination and an external audit, examiners and auditors
identified issues including increasing credit risk; an inexperienced Loan Committee;
underwriting concerns; improper accounting; reconciliation irregularities; inaccurate
Call Reports, and CEO loan violations. Examiners rated Certified’s Management
component a CAMEL 2, which we believe is an indication that not only did
examiners not adequately consider the magnitude and severity of the identified
issues, but we also believe examiners viewed the ethical issues associated with the
CEO as issues of competency.

During the December 2006 examination, although examiners lowered the
Management component to a CAMEL 4, and the Supervisory Examiner noted in the
examiner evaluation:

        “…we must maintain continued pressure on management to perform...”

We found no evidence in examination workpapers that examiners elevated the
identified issues to the SE to begin administrative action procedures against the
CEO based on his unethical behavior.

In addition, examiners indicated in their June 2005 fraud investigation memorandum
that management: (1) provide the results of the fraud investigation and any
documents related to suspicious activity to the Board; (2) formally notify the Credit
Union’s bonding company of the results of the fraud investigation, and (3) move the
next contact date for Certified to an earlier date and have a specialized lending
Subject Matter Expert (SME) participate.



15
   The Examiner’s Guide is not the ultimate authority for removal actions; there are significant due process
requirements and legal/practical limitations NCUA must consider when taking a removal action.
16
   Informal actions include items such as examination reports (with DOR), Regional Director Support Letter,
Letter of Understanding and Agreement (non-published), and Preliminary Warning Letter. Formal actions include
items such as Published Letter of Understanding and Agreement, Immediate and/or Permanent Cease and
Desist Order, Civil Money Penalties, Involuntary Liquidation, Conservatorship, Removal and/or Prohibition, and
Termination of Insurance and/or Revocation of Charter.
                                                                                                          18
Material Loss Review – Certified Federal Credit Union
OIG-11-08



The only two recommendations we could determine that examiners acted upon
were: (1) providing the results of the fraud investigation to the Board (which, as
noted, management did not act upon), and (2) moving the next supervisory contact
to an earlier date.

Although examiners completed a full scope examination on December 1, 2005
(Effective June 30, 2005), we noted no specific or expanded examiner procedures to
address the considerable fraud risk indicated in Region V’s fraud investigation
memorandum. We also determined an SME did not participate in the follow-on
examination as recommended. In addition, we found no supporting documentation
in examination workpapers that examiners had completed an evaluation and
assessment of the Credit Union’s Board, particularly as it related to addressing the
alleged fraud.

NCUA has not designed its Risk-Focused Examination Program to detect fraud and
the Guide indicates that expertise in fraud and forgery detection is beyond the
examiner’s role. However, the Guide also states examiners must be cognizant of
situations that could be conducive to fraud and/or insider abuse because it is the
most common cause of losses to the NCUSIF. The Guide also states that if red
flags indicate a potential for fraud or forgery exists, examiners should consult with
their supervisory examiner to discuss expanding the examination scope. We found
no evidence in examination workpapers prior to 2010 that examiners, faced with
potential fraud committed by the CEO, consulted with the SE about this matter.

We believe given: (1) the breach of fiduciary responsibilities committed by the CEO
through his inappropriate and suspicious activities; (2) the internal control
weaknesses identified in every external audit and report of examination dating back
to 2004; and (3) the lack of response by both the Board and the Supervisory
Committee to the findings and recommendations detailed in the Region’s
investigation memorandum, examiners should have expanded the scope of their
examinations and conducted red flag reviews as far back as 2005. 17 In addition, the
expanded scope should have included utilizing the resources of an SME to assist
the examiners in determining the proper course of administrative action to take.




17
  The NCUA Region V Examiners Guide indicates examiners need to expand procedures when red flag fraud
indicators exist such as incomplete reconciliations, out of balance conditions, and on-going recordkeeping
problems.
                                                                                                         19
Material Loss Review – Certified Federal Credit Union
OIG-11-08



Recommendations

We recommend NCUA management:

        1. Require examiners to document their consideration of external audit
           findings and recommendations in the Risk Assessment. Examiners
           should ensure examination procedures directly address the audit findings
           and examiners workpapers adequately document the review.

Management Response

Management agrees with the recommendation and is taking corrective action.
Specifically, management stated, “we are in the process of implementing a National
Supervision Policy Manual. This manual will require examiners to assess
Transaction Risk as ‘High’ in the Final Risk Assessment section of the Scope
workbook if significant or ongoing recordkeeping errors are identified. Additionally,
examiners will be required to document review of the Supervisory Committee audit
work papers during at least every other examination and follow-up on material
concerns if applicable”.


OIG Response

We concur with the actions taken to date and planned via the National Supervision
Policy Manual.


        2. Expand examiner procedures to require examiners ensure amounts
           reported on the general ledger for all material accounts such as loans,
           member deposits, cash, and investments, reconcile to subsidiary ledgers
           and to the Call Report. Examiner procedures should also include
           reviewing bank and other key account reconciliations for unusual, large, or
           stale-dated reconciling items, as well as the underlying support.

            Auditor’s Note: NCUA Instruction 5000.20, dated December 28, 2010,
            requires review and testing of bank reconciliations effective
            January 1, 2011. As noted above, we suggest the review and testing
            process be extended to other key balance sheet accounts and include
            tying out the reconciled balance to the Call Report.




                                                                                   20
Material Loss Review – Certified Federal Credit Union
OIG-11-08



Management Response

Management agrees with the recommendation and has taken corrective action. In
addition, management plans to take additional actions. Specifically, management
stated, “A National Supervision Policy Manual will be issued in an effort to enhance
the examination program and address OIG recommendations. This manual will
require examiners that identify untimely or inaccurate bank reconcilements or other
material out of balance accounts to rate Transaction Risk ‘High’, note as a major
concern in the examination overview, and provide a Document of Resolution
outlining required corrective action. Additionally, examiners are to obtain weekly
status updates from the credit union and follow-up no later than 60 days after the
identification of the problem with resolution within 180 days of identification.
Examiners are instructed to rapidly elevate the supervision and administrative action
for credit unions with persistent or pervasive recordkeeping concerns”.

OIG Response

We concur with the actions taken to date and the actions planned by management.

        3. Issue guidance regarding the evaluation of management with an emphasis
           on management integrity. The guidance should emphasize the various
           factors that should be considered when assessing the Management
           component of the CAMEL rating system. The guidance should address
           the principles of the Risk Focused Exam program that need to differ when
           addressing management integrity issues versus issues of competence.

Management Response

Management agrees with the recommendation and is planning corrective action.
Specifically, management stated, “We will evaluate this recommendation and issue
additional guidance addressing how the Risk Focused Examination program should
differ when addressing management integrity versus competency issues if
necessary”.

OIG Response

We concur with the actions planned.




                                                                                   21
Material Loss Review – Certified Federal Credit Union
OIG-11-08



Appendix A

Management Response




                                                        22
Material Loss Review – Certified Federal Credit Union
OIG-11-08




                                                        23
Material Loss Review – Certified Federal Credit Union
OIG-11-08




                                                        24
Material Loss Review – Certified Federal Credit Union
OIG-11-08




                                                        25
